Chad R. Bowman
Tel: 202.508.1120
Fax: 202.661.2299
bowmanchad@ballardspahr.com

August 19, 2021
By Efiling
Office of the Clerk
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Tah v. Global Witness Publishing, Inc., No 21-121

Dear Sir or Madam:
Pursuant to Rule 15.3 of the Rules of this Court, Respondents Global Witness Publishing,
Inc. and Global Witness (together, “Global Witness”) respectfully request a 30-day
extension of time from August 27, 2021 to and including September 27, 2021, within which
to file a brief in opposition to the petition for a writ of certiorari that was filed by Petitioners
Christiana Tah and Randolph McClain (“Petitioners”) on July 26, 2021.
On August 10, 2021, counsel for Global Witness was contact by a representative of the
Beverly Hills Bar Association and the California Society of Entertainment Lawyers, who
sought consent from Global Witness to file an amicus curiae brief on behalf of those
organizations in support of the petition for certiorari. On August 12, 2021, Global Witness
responded that it would not oppose a motion for leave to file an amicus brief.
Pursuant to Rule 37 of this Court, the proposed amicus brief in support of petitioners is due
on August 27, 2021. An extension of 30 days in which Global Witness may file its
opposition to the petition will permit Global Witness to respond to any arguments in that
amicus brief in addition to the petition itself.
Accordingly, Global Witness respectfully requests that its application for a 30-day extension
of time within which to file an opposition to the petition be granted.
Respectfully Submitted,

Chad R. Bowman

